                                                               IG-00-024




AUDIT
                           UNIX OPERATING SYSTEM SECURITY AND
REPORT                      INTEGRITY [WTIHHELD PER EXEMPTION
                                         (B)(5)] AT
                              GODDARD SPACE FLIGHT CENTER
                                              March 29, 2000




                           [Withheld per exemption (b)(5)]




                           OFFICE OF INSPECTOR GENERAL

National Aeronautics and
Space Administration
Additional Copies

To obtain additional copies of this report, contact the Assistant Inspector General for Auditing at
(202) 358-1232, or visit www.hq.nasa.gov/office/oig/hq/issuedaudits.html.

Suggestions for Future Audits

To suggest ideas for or to request future audits, contact the Assistant Inspector General for
Auditing. Ideas and requests can also be mailed to:

    Assistant Inspector General for Auditing
    NASA Headquarters
    Code W, Room 8V69
    300 E Street, SW
    Washington, DC 20546-0001

NASA Hotline

To report fraud, waste, abuse, or mismanagement, contact the NASA OIG Hotline at
(800) 424-9183, (800) 535-8134 (TDD), or at
www.hq.nasa.gov/office/oig/hq/hotline.html#form; or write to the NASA Inspector General,
P.O. Box 23089, L'Enfant Plaza Station, Washington, DC 20026. The identity of each writer and
caller can be kept confidential, upon request, to the extent permitted by law.

Please complete the reader survey at the end of this report or at
http://www.hq.nasa.gov/office/oig/hq/audits.html.



Acronyms

[withheld per exemption (b)(5)]
ID            Identification
IT            Information Technology
[withheld per exemption (b)(5)]
NPG           NASA Procedures and Guidelines
OMB           Office of Management and Budget




                                   [withheld per exemption (b)(5)]
     W                                                                                  March 29, 2000



     TO:           A/Administrator

     FROM:         W/Inspector General

     SUBJECT: INFORMATION: UNIX Operating System Security and Integrity
              Report Number IG-00-024


     The NASA Office of Inspector General has completed an audit of Unix Operating System
     Security and Integrity [withheld per exemption (b)(5)] at Goddard Space Flight Center. We
     found that the [withheld per exemption (b)(5)] did not have an adequate information
     technology (IT) security program. [withheld per exemption (b)(5)]

     Background

     NASA uses the UNIX1 operating system2 in a variety of major, [withheld per exemption
     (b)(5)] computing environments. One of NASA's major information systems that uses UNIX
     is the [withheld per exemption (b)(5)] at Goddard Space Flight Center. [withheld per
     exemption (b)(5)]

     Recommendations

     We recommended that the Director, Goddard Space Flight Center (1) improve personnel
     screening, the process for granting access to computer systems, [withheld per exemption
     (b)(5)], and protection of critical system files; (2) establish policies for privileged operations
     and system backups; and (3) implement proactive security monitoring.

     Management Response and OIG Evaluation

     Goddard management agreed that it is important to implement proper controls to reasonably
     assure system, program, and data security and integrity. However, Goddard has classified the
     [withheld per exemption (b)(5)] as a [withheld per exemption (b)(5)] information system.
     The Center has not yet completed its reassessment of whether certain [withheld per
     exemption (b)(5)] should be classified as [withheld per exemption (b)(5)] information

1
    A powerful and complex operating system (further described in Appendix B).
2
    Software that manages the basic operations of a computer system (see Appendix B).


                                          [withheld per exemption (b)(5)]
                                                                                                2


systems which imposes a significant amount of additional security controls above those
currently required.

Based on our interpretation of NASA Procedures and Guidelines (NPG) 2810.1, "Security of
Information Technology," all [withheld per exemption (b)(5)] should be classified as
[withheld per exemption (b)(5)] information systems. The NPG was issued 7 months ago,
yet Goddard has not made a final decision on how to classify some of the [withheld per
exemption (b)(5)].

Even if we had applied the security criteria for [withheld per exemption (b)(5)] systems in
performing our audit of the security controls currently implemented, the systems would not
have met most of those criteria. While Goddard has agreed to at least full implementation of
security for the [withheld per exemption (b)(5)] at least at the level required for [withheld
per exemption (b)(5)] systems, we still request Goddard to provide a specific response to
each recommendation. A summary of the status of all the recommendations is in the
Executive Summary of the report.

[original signed by]
Roberta L. Gross

Enclosure
Final Report on Audit of Unix Operating System Security
 and Integrity [withheld per exemption (b)(5)]
 at Goddard Space Flight Center




                                [withheld per exemption (b)(5)]
                            FINAL REPORT
UNIX OPERATING SYSTEM SECURITY AND INTEGRITY [withheld per
      exemption (b)(5)] AT GODDARD SPACE FLIGHT CENTER




                    [withheld per exemption (b)(5)]
W                                                                                March 29, 2000



TO:            Y/Associate Administrator for Earth Science
               Code 100/Director, Goddard Space Flight Center

FROM:          W/Assistant Inspector General for Auditing

SUBJECT:       Final Report on the Audit of Unix Operating System Security and Integrity
               [withheld per exemption (b)(5)] at Goddard Space Flight Center
               Assignment Number A9904000
               Report Number IG-00-024


The subject final report is provided for your use and comment. Please refer to the Executive
Summary for the overall audit results. Our evaluation of your response is incorporated into the
body of the report. Management provided an interim response and stated that they would provide
more specific information later. We request that management provide by April 28, 2000, the
specific corrective actions planned, ongoing, and completed or an estimated completion date.
Also, please notify us when action has been completed on the recommendations, including the
extent of testing performed to ensure corrective actions are effective. All recommendations will
remain open for reporting purposes.

If you have questions concerning the report, please contact Mr. Gregory B. Melson, Program
Director for Information Assurance Audits, at (202) 358-2588; Mr. Ernest L. Willard, Audit
Program Manager, at (650) 604-2676; or Mr. James W. Geith, Auditor-in-Charge, at (301) 286-
7943. We appreciate the courtesies extended to the audit staff. The final report distribution is in
Appendix E.


[original signed by]
Russell A. Rau

Enclosure

cc:
AO/Chief Information Officer




                                   [withheld per exemption (b)(5)]
  Contents

Executive Summary, i

Introduction, 1

Findings and Recommendations, 2

Finding A., [withheld per exemption (b)(5)] 2

Finding B. [withheld per exemption (b)(5)] Security Controls, 5

Finding C. Protection of Critical Log, 6

Finding D. Privileged Operations, 8

Finding E. System Security Monitoring, 9

Finding F. System Backup, 11

Appendix A - Objectives, Scope, and Methodology, 13

Appendix B - Glossary, 15

Appendix C - Federal Guidance Related to Information Technology
             Security, 16

Appendix D - Management's Response, Error! Bookmark not defined.

Appendix E - Report Distribution, 22




                               [withheld per exemption (b)(5)]
                                   NASA Office of Inspector General

     IG-00-024                                                                               March 29, 2000
      A9904000

      UNIX Operating System Security and Integrity [withheld per exemption (b)(5)]
                         at Goddard Space Flight Center

                                             Executive Summary

Background. NASA uses the UNIX3 operating system4 in a variety of [withheld per
exemption (b)(5)] computing environments. One of NASA's [withheld per exemption (b)(5)]
information systems that uses UNIX is the [withheld per exemption (b)(5)] at Goddard Space
Flight Center (Goddard). [withheld per exemption (b)(5)]5

Objectives. The overall objective was to determine whether the [withheld per exemption
(b)(5)] at Goddard has implemented controls at the host computer level to provide reasonable
assurance of system, program, and data security and integrity. We reviewed the adequacy of
basic controls (physical security; system backups; system startup; default accounts; systems
administration; account security, and system security monitoring) for 2 [withheld per
exemption (b)(5)] UNIX host6 computers in the [withheld per exemption (b)(5)]. Details of
our objective, scope, and methodology are in Appendix A.

Appendix B contains a glossary of terms used in this report.

Results of Audit. The [withheld per exemption (b)(5)] did not have an adequate information
technology (IT) security program. Specifically, Goddard management did not assign sufficient
priority to IT security. Our detailed findings follow:

• [withheld per exemption (b)(5)]

• [withheld per exemption (b)(5)]

• [withheld per exemption (b)(5)]7

• [withheld per exemption (b)(5)]

3
    A powerful and complex operating system (further described in Appendix B).
4
    Software that manages the basic operations of a computer system (see Appendix B).
5
    [withheld per exemption (b)(5)]
6
 A computer network interconnects many computer processors called hosts, each of which is capable of supplying
computing services to network users. Each host computer contains an operating system that supports applications
processes (see Appendix B).
7
    [withheld per exemption (b)(5)]

                                          [withheld per exemption (b)(5)]
• Proactive security monitoring and reviewing were not being accomplished for the [withheld
   per exemption (b)(5)] (Finding E). [withheld per exemption (b)(5)]

• System backup policies were inadequate, increasing the possibility that backup copies would
   be unusable or unavailable when needed (Finding F).

Unauthorized access to the [withheld per exemption (b)(5)] computers by a user who has other
than superuser privileges could result in loss of [withheld per exemption (b)(5)] support and
the loss of [withheld per exemption (b)(5)] some data. Unauthorized access with superuser
privileges would give the user complete control of the computer system and could result in
catastrophic loss of services.

Goddard personnel took prompt corrective action on a number of these deficiencies.

Recommendations. Goddard management should improve personnel screening, the process for
granting access to computer systems, [withheld per exemption (b)(5)], and protection of
critical system files; establish policies for privileged operations and system backups; and
implement proactive security monitoring.

Management's Response. Although management fully concurred in principle with the
importance of implementing and maintaining proper security controls, management did not
provide planned corrective actions for each recommendation. Also, Goddard has not yet made
its reassessment of whether certain [withheld per exemption (b)(5)] centers, [withheld per
exemption (b)(5)] should be classified as [withheld per exemption (b)(5)] information
systems or as [withheld per exemption (b)(5)] information systems.

Evaluation of Response. We consider all recommendations unresolved and open. In response
to the final report, we request additional comments that specify planned corrective actions.




                                               ii
                                 [withheld per exemption (b)(5)]
Introduction

NASA stores [withheld per exemption (b)(5)] information as both data and programs on many
UNIX-based computers in data centers and user-controlled areas. Because NASA used UNIX in
[withheld per exemption (b)(5)] computing environments, it must be subject to IT security
requirements to ensure that data and programs are protected from unauthorized or accidental
modification, damage, destruction, or disclosure. UNIX is an extraordinarily complex operating
system. Many vendors have developed their own versions of the UNIX operating system and
hardware. [withheld per exemption (b)(5)]

[paragraph withheld per exemption (b)(5)]

The [withheld per exemption (b)(5)] perform the system administration responsibilities for the
[withheld per exemption (b)(5)] computer systems. (The terms [withheld per exemption
(b)(5)] and system administrators are interchangeable for the purposes of this report.)

UNIX systems are favorite targets of hackers. Without adequate UNIX security controls, the
[withheld per exemption (b)(5)] IT systems could be compromised by an unauthorized source.




                                 [withheld per exemption (b)(5)]
Findings and Recommendations


Finding A. [withheld per exemption (b)(5)]
[paragraph withheld per exemption (b)(5)]

Federal and NASA Policies and Procedures on Personnel Screening

Office of Management and Budget (OMB) Circular No. A-130, "Management of Federal
Information Resources," February 8, 1996, requires that individuals who are authorized to bypass
significant technical and operational security controls of a system must be screened both before
being authorized to bypass controls and periodically thereafter.

NASA Procedures and Guidelines (NPG) 1620.1, " Security Procedures and Guidelines,"
November 18, 1999, requires a National Agency Check8 for civil service and contractor
personnel who require access to IT systems that process sensitive information.

NPG 2810.1, "Security of Information Technology," August 26, 1999, requires that individuals
who are authorized to bypass significant technical and operational security controls of a system
must be screened before being granted access.

Federal and NASA Policies and Procedures on Access Authorization

OMB Circular A-130 and NPG 2810.1, require that individuals be granted the minimum
privileges necessary to accomplish their tasks.

NPG 2810.1 requires that system administrators grant accounts only to individuals who
have had the appropriate personnel screening. The NPG also requires that system
administrators receive an Account Request Document approved by a Government
management official responsible for the individual before the system administrators grant
the individual access to a computer system. The Account Request Document must
contain a statement indicating that the requestor acknowledges an understanding of and
intention to comply with a statement concerning user responsibilities, possible
monitoring of their computer use, and that failure to abide by the provisions may
constitute grounds for administrative action and/or civil or criminal prosecution. (See
Appendix C for further details on Federal and NASA IT security requirements.)

Access Authorization

Before a system administrator can give someone an account on an information system that
processes sensitive information, three things must occur.


8
    See Appendix C, under Personnel Screening, for a description of a National Agency Check.



                                                         2
                                          [withheld per exemption (b)(5)]
•     First, the Center must conduct a personnel screening to determine whether the individual is
      eligible to be issued an account. The level of screening that is required depends on which
      access privileges the individual needs to perform his or her job and the nature of the
      information that the individual uses.

•     Second, an Account Request Document must be prepared. The document includes:
      identification information for the requester; the requester's citizenship; the system or group of
      systems for which an account is being requested, the level of user privileges afforded to the
      account, the requester's signature, and the date the requester acknowledges an understanding
      of and intention to comply with the rules and conditions associated with having an account.

•     Third, a Government management official or a Government designee responsible for the
      individual must approve the request.

Personnel Screening

Goddard had not performed the National Agency Checks required by NPG 1620.1 on 16 of the
20 contractor personnel who have access to [withheld per exemption (b)(5)] computer systems,
including one system administrator for the [withheld per exemption (b)(5)]. System
administrators have the authority to bypass significant technical and operational security controls
of a system. The other personnel had access to sensitive information [withheld per exemption
(b)(5)]. The screenings were not performed because Goddard's policy was to not perform
personnel screenings solely for granting access to IT systems. This policy did not comply with
Federal and NASA policy.

The failure to conduct personnel screenings degraded the information technology security
environment and increased the possibility of unauthorized access and misuse of Government
resources and information that could result in the loss of [withheld per exemption (b)(5)].

Access Authorization Procedures

[paragraph withheld per exemption (b)(5)]

[withheld per exemption (b)(5)] The General Accounting Office also identified that NASA
was not providing required security training in an audit report titled "Information Security, Many
NASA Mission Critical-Systems Face Serious Risks," Report Number GAO/AIM-99-47, dated
May 1999. [withheld per exemption (b)(5)]

[withheld per exemption (b)(5)]9

Acknowledgement of User Responsibilities



9
    [withheld per exemption (b)(5)]


                                                    3
                                      [withheld per exemption (b)(5)]
Users were not required to sign a statement acknowledging their security responsibilities or that
that their use of Government computer systems was subject to monitoring and that unauthorized
use could result in administrative action and/or civil or criminal prosecution. Although the
statement is required by NPG 2810.1, the [withheld per exemption (b)(5)] contractor had not
established procedures for authorizing access to the [withheld per exemption (b)(5)] computer
systems.

The failure to have users sign an acknowledgment of their responsibilities degraded information
technology security. The failure to have users acknowledge the fact that their use of Government
systems is subject to monitoring can impede the investigation of unauthorized use of computer
systems and reduce the Government's ability to prosecute misuse in the civil and criminal courts.

Shortly after we notified them during the audit, the system administrators started correcting these
problems by establishing account access procedures. All [withheld per exemption (b)(5)]
personnel have now signed Account Request Forms acknowledging: (1) their responsibilities, (2)
that their use of Government computer systems is subject to monitoring, and (3) that
unauthorized use can result in administrative action and/or civil or criminal prosecution.


Recommendations, Management's Response, and Evaluation of Response
The Director, Goddard Space Flight Center, should:

       1. Direct the Center Chief of Security to change the Goddard policy on performing
          personnel screenings to comply with Federal and NASA directives.

       2. Direct the Center Chief of Security, Center Information Technology Security
          Manager, and the [withheld per exemption (b)(5)] to take immediate
          action to perform the required personnel screenings.

       3. [withheld per exemption (b)(5)]

Management's Response. Management concurred with the importance of implementing proper
controls, but did not provide specific comments on the recommendations. The complete text of
management's response in Appendix D.

Evaluation of Management's Response. We request that the Director, Goddard Space Flight
Center, provide additional comments on the recommendations including specific planned
actions.




                                                 4
                                   [withheld per exemption (b)(5)]
Finding B. [withheld per exemption (b)(5)] Security Controls
[section withheld per exemption (b)(5)]1011




10
     [withheld per exemption (b)(5)]
11
     [withheld per exemption (b)(5)]


                                                     5
                                       [withheld per exemption (b)(5)]
Finding C. Protection of Critical Log
The [withheld per exemption (b)(5)] system administrators did not save to a secure secondary
location an automated log, which is critical to monitoring unauthorized access. This condition
existed because system administrators believed the system was secure and that protecting the log
entries was not necessary. [withheld per exemption (b)(5)]

Agency Policy Related to Audit Trails

NPG 2810.1 requires, as part of the minimum IT security requirements, that NASA systems
provide “ . . . audit trails or a journal of security-relevant events” (see Appendix C). The NPG
defines an audit trail as a chronological record of computer activities and states that an audit trail
" . . . should be sufficient to enable the reconstruction and examination of a sequence of events,
environments, activities, procedures, or operations from inception to final result.” The NPG
requires that these journals for mission information systems be kept for 12 months.

One Audit Trail

[section withheld per exemption (b)(5)].




                                                  6
                                    [withheld per exemption (b)(5)]
Recommendation, Management's Response, and Evaluation of Response
7. [withheld per exemption (b)(5)].

Management's Response. Management did not provide specific comments on this
recommendation (see Appendix D).

Evaluation of Management's Response. We request that management provide additional
comments on this recommendation that specify planned corrective actions.




                                                7
                                  [withheld per exemption (b)(5)]
Finding D. Privileged Operations

[section withheld per exemption (b)(5)]12




12
     [withheld per exemption (b)(5)]


                                                     8
                                       [withheld per exemption (b)(5)]
Finding E. System Security Monitoring
[paragraph withheld per exemption (b)(5)]

NASA Policies and Procedures

For [withheld per exemption (b)(5)] systems, NPG 2810.1 requires that management
implement a process that accomplishes the following:

• Ensures the system journal records security-related events.

• Reviews journals daily or when problems are suspected.

• Records successful and failed logons and logoffs.

• Records all successful and failed file openings and closings.

• Records all file creation/modification/deletion events.

• Ensures that journals identify programs being executed, users, source device files, and the
      time, date, and success or failure of all access attempts.

Additionally, the NPG requires that each system “ . . . have a System Administrator who will
ensure that the protective security measures of the system are functional and who will maintain
its security posture.” The system administrator's responsibilities include:

• Using IT security tools to assist in detecting modifications to the system and monitoring audit
      logs.

• Ensuring that security controls are in place and functioning.
Logging and Review of System Activity

[withheld per exemption (b)(5)]13

Tools such as UNIX accounting utilities and third-party software are available to assist and
enhance security monitoring. [withheld per exemption (b)(5)]

Recommendation, Management's Response, and Evaluation of Response


13
     [withheld per exemption (b)(5)]


                                                     9
                                       [withheld per exemption (b)(5)]
9. The Director, Goddard Space Flight Center, should direct the [withheld per exemption
(b)(5)] to record and review system events as required by NPG 2810.1.

Management's Response. Management did not provide specific comments on this
recommendation (Appendix D).

Evaluation of Management's Response. We request that the Director, Goddard Space Flight
Center, provide specific planned actions on the recommendation in response to the final report.




                                                10
                                  [withheld per exemption (b)(5)]
Finding F. System Backup
The system administrators had not developed management-approved policies covering backups
of the operating systems, applications, and other information on the [withheld per exemption
(b)(5)] host computers. This occurred because Goddard management had not complied with
Agency IT security policies. As a result, restoration of the operating system from the backup
copies may take longer than necessary. Further, it may not be possible to restore an
uncompromised version of the operating system from the backup copies, if the system is
compromised.

NASA Policy Regarding System Backup

NPG 2810.1 requires that management implement a process for systems that:

•      Retains journals14 at least 1 year.

•      Backs up the operating systems at least monthly and when modified.

•      Retains operating system backups for at least 1 year.

•      Stores in an external location the most recent backup copies or backup copies made
       immediately before the most recent.

Backup Operations

Daily and weekly backups of the [withheld per exemption (b)(5)] host computers were being
made to hard drives on other computers in the [withheld per exemption (b)(5)]. Monthly
backups of one of the two host computers that we reviewed were being made to tapes that were
stored in the [withheld per exemption (b)(5)]. However, there was only one backup copy. The
system administrators used the same set of tapes each month. As a result, the system journals
and backup copies were not retained for at least 1 year as required.

Because there was only a single copy of the backup tapes, there was no off-site storage of a
backup copy of the operating system and journals. However, the [withheld per exemption
(b)(5)] had a copy of the operating system and application software that the system
administrators could use to rebuild the computer systems.

The [withheld per exemption (b)(5)] contractor had no policies for testing the backups to
ensure they are useable. Having backup copies is not sufficient to ensure that a system can be
restored if necessary. Backup copies must be tested periodically to determine they are actually
useable.



14
     The journals contain the security-related events and other events described in Finding E.



                                                            11
                                            [withheld per exemption (b)(5)]
These conditions existed because Goddard management had not given adequate priority to IT
security and had not ensured that the [withheld per exemption (b)(5)] developed and
implemented policies for system backup that comply with Agency policy.

Potential Impact

The lack of adequate backup copies of the operating system could delay restoration of the
[withheld per exemption (b)(5)] systems in the event of an emergency that made the [withheld
per exemption (b)(5)] unusable. If computer hackers compromise the operating systems, the
lack of a series of backups makes it more difficult to restore a version of the operating system
that has not been compromised and to investigate the compromise.

As a result of our audit, the [withheld per exemption (b)(5)] system administrators
implemented a weekly backup on the [withheld per exemption (b)(5)] computers. This process
provides off-site storage for a backup copy of the system software. In addition, the system
administrators created formal procedures for backup operations including semiannual testing of
the data.

Recommendation, Management's Response, and Evaluation of Response

10. The Director, Goddard Space Flight Center, should direct the [withheld per exemption
(b)(5)] to develop and implement adequate policies for backups of the [withheld per
exemption (b)(5)] operating systems.

Management's Response. Management did not provide specific comments on this
recommendation (see Appendix D).

Evaluation of Management's Response. We request that the Director, Goddard Space Flight
Center, provide specific planned actions on the recommendation in response to the final report.




                                                12
                                  [withheld per exemption (b)(5)]
                 Appendix A. Objectives, Scope, and Methodology


Objectives

The overall objective was to determine whether the [withheld per exemption (b)(5)] at
Goddard has implemented controls at the host computer level to provide reasonable assurance of
system, program, and data security and integrity. We reviewed selected UNIX hosts in the
[withheld per exemption (b)(5)] for basic controls (physical security, system backups, system
startup, default accounts, systems administration, account security, and audit and monitoring).

Scope and Methodology

We performed work at Goddard by reviewing 2 [withheld per exemption (b)(5)] UNIX host
computers, [withheld per exemption (b)(5)]. We selected these computers because they
supported information systems that Goddard had designated as [withheld per exemption
(b)(5)]. During the audit field work, we reviewed the following:

• General Accounting Office reports related to NASA IT Security.

• Federal and NASA directives (listed in Appendix C) governing the management and use of
   information systems.

• Goddard policies and procedures applicable to the [withheld per exemption (b)(5)].

• Physical access security for the hosts.

• [withheld per exemption (b)(5)] policies, procedures, and practices for system backup.

• System startup and shutdown procedures and permissions and contents of startup files.

• Default passwords to determine whether they had been changed.

• Responsibilities of system administrators.

• Security controls for user and root logons.

• Account security, including password security controls.

• System security monitoring functions.




                                                13
                                  [withheld per exemption (b)(5)]
                                                                                 Appendix A


We also:

• Interviewed Goddard civil service and [withheld per exemption (b)(5)] personnel to
   identify policies and procedures relating to UNIX security.

• Utilized various resources for reference information [withheld per exemption (b)(5)] for
   UNIX security guidelines.

Our audit procedures are not intended to address audit coverage of all potential security
weaknesses, or to provide an opinion on the overall security of the [withheld per exemption
(b)(5)] infrastructure. [withheld per exemption (b)(5)]

Management Controls Reviewed

We reviewed Federal and NASA policies and procedures relating to [withheld per exemption
(b)(5)] control and management to determine whether the policies and procedures for UNIX
security were adequate. We identified the weaknesses discussed in the Findings section of the
report.

Prior Audit Coverage

The General Accounting Office issued an audit report titled "Information Security, Many NASA
Mission Critical-Systems Face Serious Risks," Report Number GAO/AIM-99-47, May 1999.

Audit Field Work

We performed field work from July 1999 through February 2000 at Goddard. We performed the
audit in accordance with generally accepted government auditing standards.




                                                14
                                  [withheld per exemption (b)(5)]
                                   Appendix B. Glossary


Console. The combination of display monitor and keyboard (or other device that allows input).
Another term for console is terminal. The term console usually refers to a terminal attached to a
minicomputer or mainframe and used to monitor the status of the system.

Host. A computer network interconnects many computer processors called hosts; each is
capable of supplying computing services to network users. Each host computer contains an
operating system that supports applications processes.

Log in. The identification and authentication sequence that authorizes a user’s access to a
computer. Conversely, “log out” is the sequence that terminates user access to the system.

[Paragraph withheld per exemption (b)(5)]

Operating System. Software that manages the basic operations of a computer system. The
software calculates how the computer main memory will be apportioned, how and in what order
to handle tasks assigned to it, how to manage the flow of information into and out of the main
processor, how to send material to the printer for printing and to the screen for viewing, how to
receive information from the keyboard, etc. In short, the operating system handles the
computer’s basic housekeeping. MS-DOS, UNIX, and Windows NT are a few examples of
operating systems.

Superuser. A user who is granted special privileges if the correct password is supplied when
logging in. The user name for this account is normally “root." A user must be “root” to perform
many system administration tasks, such as changing ownership and permissions for a file or
directory that the user does not own.

UNIX. An immensely powerful and complex operating system. UNIX provides multi-tasking,
multi-user capabilities that allow both multiple programs to be run simultaneously and multiple
users to use a single computer. On a single-user system, such as MS-DOS, only one person at a
time, on an individual task basis, can use a computer’s files, programs, and other resources.
UNIX works on many different computers. This means you can often take applications software
that runs on UNIX and move it – with little changing – to a bigger, different computer or to a
smaller computer. This process of moving programs to other computers is known as “porting.”
Today, the UNIX operating system is available on a wide range of hardware, from small
personal computers to the most powerful mainframes, from a multitude of hardware and software
vendors.

User ID. User identification. A unique character string used in a computer to identify a user.




                                                 15
                                   [withheld per exemption (b)(5)]
 Appendix C. Federal Guidance Related to Information Technology Security


OMB Circular No. A-130, "Management of Federal Information Resources." Circular No.
A-130 provides uniform Government-wide information resources management policies.
Appendix III of the Circular establishes a minimum set of controls to be included in Federal
automated information security programs.

NPG 1620.1, "Security Procedures and Guidelines." NPG 1620.1 "provides internal
guidelines and procedures to assist NASA Centers in complying with the minimum standards,
requirements, and specifications for the protection of personnel, sensitive unclassified/classified
information, material, facilities, and resources in the possession of NASA, as well as the basic
information regarding the assignment of management responsibilities."

NPG 2810.1, “Security of Information Technology.” NPG 2810.1 cancels NASA Automated
Information Security Handbook (NHB 2410.9A), dated June 1993, and became effective on
August 26, 1999. NPG 2810.1

               . . . describes the NASA IT Security Program, providing direction designed to
               ensure that safeguards for the protection of the integrity, availability, and
               confidentiality of IT resources (e.g., data, information, applications, and
               systems) are integrated into and support the missions of NASA. . . . NASA’s IT
               Security Program is a set of policies, procedures, and guidance for ensuring the
               security of the Agency’s IT resources.

Appendix A of NPG 2810.1, “Baseline IT Security Requirements,” lists “ . . . the minimum
technical, procedural, and physical IT security requirements for protecting NASA’s IT
resources.” Appendix A, Section A.6.1 of NPG 2810.1, “Operating System Integrity,”
“ . . . describes the requirements for ensuring operating system integrity on NASA multi-user
computers.”

Personnel Screening

OMB Circular No. A-130, Appendix III, paragraph A.3.a.(2).(c), requires screening for
individuals who are authorized to bypass significant technical and operational security controls
of a system commensurate with the risk and magnitude of harm they could cause. Such
screening shall occur prior to an individual being authorized to bypass controls and periodically
thereafter. Paragraph A.3.b.(2).(c), requires that

               . . . controls such as separation of duties, least privilege and individual
               accountability be incorporated in major applications and application rules. . . .
               Least privilege is the practice of restricting a user's access (to data files, to
               processing capability, or to peripherals) or type of access (read, write, execute,
               delete) to the minimum necessary to perform his or her job.



Appendix C


                                                      16
                                       [withheld per exemption (b)(5)]
Where such controls ". . . cannot adequately protect the application or information in it, screen
individuals commensurate with the risk and magnitude of the harm they could cause."

NPG 1620.1, paragraph 3.2.2, requires a National Agency Check for civil service and contractor
personnel who require access to IT systems that process sensitive information in compliance
with Appendix III of OMB Circular No. A-130. The National Agency Check consists of a
review of:

       a. Investigative and criminal history files of the Federal Bureau of Investigation,
          including a technical fingerprint search;

       b. Office of Personnel Management Security/Suitability Investigations Index;

       c. Department of Defense's Defense Clearance and Investigations Index; and

       d. Such other national agencies (for example, Central Intelligence Agency, Immigration
          and Naturalization Service) as appropriate to the individual’s background.

NPG 2810.1, paragraph 2.2.8.2.c, requires that system administrators grant accounts only to
individuals who have had the appropriate personnel screening. Paragraph 4.5.1.2, states,

               Some positions require special access privileges in order to do the assigned job
               or duties. These are "Public Trust" positions since they can affect the integrity,
               efficiency, or effectiveness of the system to which they have been granted
               privileged access. Screening for suitability, prior to being granted access, is
               required.

Paragraph 4.5.3.1.a, states, "Privileged access -- Can bypass, modify, or disable the technical and
operational security controls."

[withheld per exemption (b)(5)]Security

[section withheld per exemption (b)(5)]

                                                                                                    Appendix C


Individual Accountability and Controlled Access Protection

OMB Circular A-130, Appendix III, paragraph B.a.(c), states:

               Individual accountability consists of holding someone responsible for his or her
               actions. In a general support system, accountability is normally accomplished
               by identifying and authenticating users of the system and subsequently tracing
               actions on the system to the user who initiated them.

NPG 2810.1, paragraph A.6.4.3, “Controlled Access Protection,” states:

                                                       17
                                       [withheld per exemption (b)(5)]
               Controlled access protection is the ability of the system to control the
               circumstances under which users have access to resources. Management will
               ensure that all systems that are accessed by more than one user will provide the
               following controlled access protection when those users do not have the same
               authorization to use all of the information on the system:

               •   Provides individual electronic accountability through identification and
                   authentication of each system user.


               •   Provides audit trails or a journal of security-relevant events.

Security Monitoring

NPG 2810.1, paragraph 2.2.8.1, states "Each system will have a System Administrator who will
ensure that the protective security measures of the system are functional and who will maintain
its security posture."

Paragraph 2.2.8.2 of NPG 2810.1 provides a list of security responsibilities. The responsibilities
include:

•   Periodically using tools to verify and/or monitor compliance to password guidelines.

•   Using IT security tools to assist in detecting modifications to the system and monitoring audit
    logs.

•   Ensuring that security controls are in place and functioning.

The [withheld per exemption (b)(5)] host computers have the ability to record (in journals)
important system events. These journals can be used as an audit trail to investigate system or
security problems. NPG 2810.1, Appendix A, paragraph A.6.1.3, states:




                                                       18
                                       [withheld per exemption (b)(5)]
Appendix C


              Management will implement a process that accomplishes the following (for
              Mission Information systems):

              •   Ensures system journals record security-related events.


              •   Reviews journals daily or when problems are suspected.


              •   Records successful and failed logons/logoffs.


              •   Records all successful and failed file opens and closes.


              •   Records all file creation/modification/deletion events.


              •   Ensures journals identify programs being executed, users, source devices,
                  files, and the time, date, and success or failure of all access attempts.

System Backup

NPG 2810.1, Appendix A, paragraph A.6.1.4, states:

             To ensure continuity of operation, copies of important software and data will be
             made and retained. NASA Internet server log files shall be processed according
             to the NASA records retention procedure. (See NPG 1441.1C, Records
             Retention Schedules, for retention requirements and procedures.) Management
             will implement a process that accomplishes the following (for Mission
             Information systems):

              •   Retains journals at least 1 year or 3 generations (whichever is longer)


              •   Backs up the operating systems and key system services at least monthly
                  and when modified


              •   Retains operating system backups for at least 1 year


              •   Stores the most recent or most recent minus one backup external to the
                  Center




                                                     19
                                     [withheld per exemption (b)(5)]
Appendix D. Management's Response




                    20
      [withheld per exemption (b)(5)]
Appendix D




                           21
             [withheld per exemption (b)(5)]
                          Appendix E. Report Distribution



National Aeronautics and Space Administration (NASA) Headquarters

A/Administrator
AI/Associate Deputy Administrator
AO/Chief Information Officer
J/Associate Administrator for Management Systems
L/Associate Administrator for Legislative Affairs
Q/Associate Administrator for Safety and Mission Assurance
Y/Associate Administrator for Earth Science

NASA Center

100/Director, Goddard Space Flight Center




                                              22
                                [withheld per exemption (b)(5)]
                       NASA Assistant Inspector General for Auditing
                                      Reader Survey

The NASA Office of Inspector General has a continuing interest in improving the usefulness of
our reports. We wish to make our reports responsive to our customers’ interests, consistent with
our statutory responsibility. Could you help us by completing our reader survey? For your
convenience, the questionnaire can be completed electronically through our homepage at
http://www.hq.nasa.gov/office/oig/hq/audits.html or can be mailed to the Assistant Inspector
General for Auditing; NASA Headquarters, Code W, Washington, DC 20546-0001.


Report Title: Unix Operating System Security and Integrity [withheld per exemption (b)(5)]
              at Goddard Space Flight Center

Report Number:                                         Report Date:


Circle the appropriate rating for the following statements.

                                                      Strongly                                Strongly
                                                       Agree     Agree   Neutral   Disagree   Disagree   N/A

1.   The report was clear, readable, and logically       5         4       3          2          1       N/A
     organized.
2.   The report was concise and to the point.            5         4       3          2          1       N/A
3.   We effectively communicated the audit               5         4       3          2          1       N/A
     objectives, scope, and methodology.
4.   The report contained sufficient information to      5         4       3          2          1       N/A
     support the finding(s) in a balanced and
     objective manner.

Overall, how would you rate the report?
      Excellent              Fair
      Very Good              Poor
      Good
If you have any additional comments or wish to elaborate on any of the above responses,
please write them here. Use additional paper if necessary.
How did you use the report?




How could we improve our report?




How would you identify yourself? (Select one)

       Congressional Staff                      Media
       NASA Employee                            Public Interest
       Private Citizen                          Other:
       Government:            Federal:             State:         Local:


May we contact you about your comments?

Yes: ______                                 No: ______
Name: ____________________________
Telephone: ________________________


Thank you for your cooperation in completing this survey.
Major Contributors to this Report

Gregory B. Melson, Program Director for Information Assurance Audits

Ernest L. Willard, Audit Program Manager

James W. Geith, Auditor-in-Charge

Pat Reid, Program Assistant




                              [withheld per exemption (b)(5)]
